w # £>
USCA11 Case: 20-13335

Date Filed: 04/27/2021

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 20-13335-J
BRIAN GREEN,
Petitioner-Appellant,
versus
CLINTON PERRY,
C. CARR,
Respondents-Appellees.
Appeal from the United States District Court
for the Northern District of Georgia

Before: GRANT and LAGOA, Circuit Judges.
BY THE COURT:
Brian Green has filed a motion Tor reconsideration, pursuant to 11th Cir. R. 22-1(c) and
27-2, of this Court’s March 17, 2021, order denying a certificate of appealability, leave to proceed
in forma pauperis, and leave to strike the “Premature Appeal,” all in his appeal from the district
court’s denial of his 28 U.S.C. § 2254 habeas corpus petition and motion for reconsideration. Upon
review, Green’s motion for reconsideration is DENIED because he has offered no new evidence
or arguments of merit to warrant relief.

USCA11 Case: 20-13335

Date Filed: 03/17/2021

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 20-13335-J
BRIAN GREEN,
Petitioner-Appellant,
versus
CLINTON PERRY,
C. CARR,
Respondents-Appellees.
Appeal from the United States District Court
for the Northern District of Georgia
ORDER:
Brian Green moves for a certificate of appealability (“COA”), to strike his “premature
appeal,” and in forma pauperis (“IFP”) status, all on appeal from the denials of his 28 U.S.C.
§ 2254 habeas corpus petition and motion for reconsideration. To merit a COA, Green must show
that reasonable jurists would find debatable both (1) the merits of an underlying claim, and (2) the
procedural issues that he seeks to raise. See 28 U.S.C. § 2253(c)(2); Slack v. McDaniel, 529 U.S.
473,478 (2000). Green’s motion for a COA is DENIED because he has failed to make the requisite
showing, and his motion for IFP status is DENIED AS MOOT. Green’s motion to strike his appeal
is DENIED because his appeal is not premature, as his motion for reconsideration was denied.
/s/ Britt C. Grant
UNITED STATES CIRCUIT JUDGE

-S' ot

R\

^EO

OCT 2 7 2020
__________ IN THE UNITED STATES DISTRICT COURT
Mai/room FOR THE NORTHERN DISTRICT OF GEORGIA
MaCOnS P
ATLANTA DIVISION

Brian Green
Petitioner,

Case No. l:19-cv-03281
Michael L. Brown
United States District Judge

v.
Clinton Perry,
Respondent.

ORDER
In July 2019, Petitioner Brian Green (a pro se prisoner) filed a
federal habeas petition pursuant to 28 U.S.C. § 2254. In June 2020, the
Magistrate Judge recommended denying the petition, dismissing this
case, and denying a certificate of appealability. (Dkt. 22.) In July 2020
the Court adopted the Magistrate Judge’s report and recommendation
(“R&R”). (Dkt. 26.) Petitioner filed objections to the R&R a few days
later. (Dkt. 28.) These objections were timely mailed but were belatedly
entered on the docket, meaning they were not considered in the Court’s
\

disposition of this case.

Petitioner has now filed a motion for

reconsideration in which he asks the Court to reevaluate the R&R in the

ions. (Dkt. 29.) The Court has done so. But the
Court’s conclusion remains unchanged. Petitioner has still not shown
that the R&R was wrong or that he is entitled to relief. As a result, his
objections are overruled and his motion for reconsideration is denied.
I.

Legal Standard
A district judge has broad discretion to accept, reject, or modify a

magistrate judge’s proposed findings and recommendations.

United

States v. Raddatz, 447 U.S. 667, 680 (1980). Pursuant to 28 U.S.C. §
636(b)(1),

the

Court

reviews

any portion

of the

Report

and

Recommendation that is the subject of a proper objection on a de novo
basis and any non-objected portion under a “clearly erroneous” standard.
“Parties filing objections to a magistrate’s report and recommendation
must specifically identify those findings objected to.

Frivolous

conclusive or general objections need not be considered by the district
court.” Marsden v. Moore, 847 F.2d 1536, 1548 (11th Cir. 1988).
II.

Discussion
As discussed in detail in the R&R, Petitioner was convicted of

armed robbery and kidnapping after a jury trial in Douglas County
Superior Court. The court sentenced him to life in prison. The Georgia

2

Court of Appeals affirmed Petitioner’s convictions. Green v. State, 714
S.E.2d 646 (Ga. Ct. App. 2011). After unsuccessfully seeking habeas
corpus relief in state court, Petitioner filed the instant 28 U.S.C. § 2254
petition for a writ of habeas corpus.
In the R&R, the Magistrate Judge determined that most of
Petitioner’s claims are procedurally defaulted because (1) he did not raise
the claims in state court and would now be prevented from doing so, or
(2)

the state habeas court itself concluded that the claims were

procedurally barred. See Hill v. Jones, 81 F.3d 1015, 1022 (11th Cir.
1996). The Magistrate Judge further concluded that Petitioner failed to
demonstrate cause and prejudice or actual innocence to overcome the
default of those claims. With respect to the two claims that were not
defaulted, the Magistrate Judge found that this Court must defer under
Section 2254(d) to the state habeas corpus court’s conclusion that the
claims lack merit.
Petitioner’s objections are fifty-six pages long and contain
numerous misstatements and conclusory assertions. Petitioner mostly
repeats his claim that his rights were violated in relation to his arrest
and convictions.

To the extent he specifically and nonconclusorily

3

challenges the Magistrate Judge’s findings, his arguments fail. He first
says the Magistrate Judge erred in concluding that his Claims 3(a), 3(c),
4(a), and 4(f) were not raised in state court. But Petitioner is wrong and
misstates the claims he rose in state court. To take just one example,
Claim 3(a) asserts that Petitioner’s trial counsel was ineffective for
failing to file a motion to suppress evidence seized from his vehicle.
Petitioner says he presented this claim in state court — but the claim he
actually presented was that his appellate counsel was ineffective for not
yje.ll, UUkfit /S clAim
m<xHr to states ftofrl
7
raising the issue. All of Petitioner’s unexhausted and procedurally
—i'f.

defaulted claims, that he now says were raised in state court, relied on
factual and legal theories that were different from the claims he raises
here. The Magistrate Judge was therefore correct in her conclusion that
the claims are defaulted.
Petitioner next argues that the Magistrate Judge erred in
concluding that Petitioner’s Claims 1, 2, 3(b), and 5 are procedurally
defaulted.

The Court again disagrees. The state habeas court clearly

held that those claims were defaulted pursuant to O.C.G.A. § 9-14-48(d)
and that Petitioner had failed to demonstrate cause and prejudice to lift
the procedural bar. (Dkt. 12-5 at 7—11). “Federal courts may not review

4

a claim procedurally defaulted under state law if the last state court to
review the claim states clearly and expressly that its judgment rests on
a procedural bar, and the bar presents an independent and adequate
state ground for denying relief.” Hill, 81 F.3d at 1022. To the extent
Petitioner says he can demonstrate cause and prejudice to overcome his
default of Claims 1 and 3(a) because his appellate counsel was ineffective,
the Magistrate Judge properly determined that this claim of ineffective
assistance of appellate counsel is itself unexhausted and procedurally
defaulted. (Dkt. 22 at 8). And to the extent Petitioner says Respondent
admits he raised Claim 4(c)1 before the state habeas court, he is simply
wrong. (Id.)
Finally, in Claim 4(b), Petitioner contends that his appellate
counsel was ineffective for failing to raise a meritorious Fourth
Amendment argument on appeal. This Court acknowledges that the
Magistrate Judge mischaracterized this claim at one point, mistakenly
saying the claim asserted that appellate counsel failed to raise a claim of
ineffective assistance of trial counsel regarding the Fourth Amendment

1 In Claim 4(c), Petitioner contends that his appellate counsel was
ineffective for failing to argue that trial counsel was ineffective for failing
to raise a Fourth Amendment argument.
5

claim — which is actually Petitioner’s Claim 4(c). But the state habeas
court ultimately reviewed the real Claim 4(b)2 on its merits and
determined that appellate counsel’s testimony demonstrated that he
made a reasonable strategic decision not to raise the Fourth Amendment
issue because there was no likelihood of success on the issue. (Dkt. 12-5
Irfouu is
io /uof /f l^-ea l clAnh -f/,e S'-Z/ffe. 'gesfo/jp&P /<U
at 15-16); see id. n.2. The state court’s conclusion was reasonable, and
cooftf ZUftlUfrh£itOPtl
GRizoft- <? AtJi> IO, 6<Jky V'V
Petitioner has failed to demonstrate it is not entitled to deference under
/ {-'R.ROi'2-

§ 2254(d).

S+A-f-e.

1ri-fe- CoUfJzef T) AI ‘
#Pp£esseb ^ £%&>&£

UJ ifU,
-tU (Sha**-j5>
Of AfJTz (O 1

COhctU

The Court has carefully reviewed Petitioner’s objections. Nothing
about them changes the Court’s conclusion that the R&R was right and
that Petitioner is not entitled to habeas relief. The Court thus denies
Petitioner’s motion for reconsideration.

2 Petitioner’s Fourth Amendment claim is that Cobb County police
improperly searched his vehicle and found a photograph of him that was
later used by Clayton County in a photograph array shown to his victims.
As determined by the state court, the police could just as easily have
taken a photograph of Petitioner to use in their array, and the inevitable
discovery doctrine or the independent source doctrine thus applies to
defeat Petitioner’s Fourth Amendment claim. Nix v. Williams, 467 U.S.
431, 443 (1984). The state court also noted that Cobb County Police made
the purportedly illegal search, and Petitioner failed to demonstrate that
Clayton County Police, who used the photograph, were aware of the
illegal search such that the photograph should be excluded. (Dkt. 12-5 at
15-16).
6

III.

Conclusion
Petitioner’s Objections (Dkt. 28) are OVERRULED and his Motion

for Reconsideration (Dkt. 29) is DENIED.

Because this Court has

already denied Petitioner a certificate of appealability, and because the
Court sees no reasonable basis for an appeal, Petitioner’s Application to
Proceed In Forma Pauperis on Appeal (Dkt. 36) is also DENIED.
SO ORDERED this 21st day of October, 2020.

MICHAEL L. BROWN
UNITED STATES DISTRICT JUDGE

7

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA u
ATLANTA DIVISION
/

Brian Green,
Petitioner,

Case No. l:19-cv-03281
Michael L. Brown
United States District Judge

v.
Clinton Perry and C. Carr,
Respondents.

ORDER
Petitioner Brian Green (a pro se prisoner) seeks a writ of habeas
corpus and an evidentiary hearing on his habeas claims. (Dkts. 1; 21.)
Respondent Christopher Carr (the Attorney General of Georgia) also
moves to be dismissed as an improper party. (Dkt. 11.) The Magistrate
Judge recommends denying Petitioner’s habeas petition, denying
Petitioner’s motion for an evidentiary hearing, denying a certificate of
appealability, and granting Respondent Carr’s motion to dismiss.
(Dkt. 22.) The parties filed no objections to these recommendations. The
Court, therefore, conducts a plain error review of the record.

United

States v. Slay, 714 F.2d 1093, 1095 (11th Cir. 1983); see Sengchanh v.

Lanier, 89 F. Supp. 2d 1356, 1358 (N.D. Ga. 2000) (“If no objections are
filed to the Report and Recommendation, it is reviewed for plain error
only.”).1
I.

Background
In January 2009, a Douglas County jury convicted Petitioner of

armed robbery and kidnapping. (Dkts 1 at 1; 12-7 at 56—59.) Petitioner
appealed, but the Georgia Court of Appeals affirmed his convictions and
the Georgia Supreme Court denied his petition for certiorari. (Dkts. 121; 12-2.) Petitioner then filed a habeas petition in the Superior Court of
Chattooga County. (Dkts. 12-3; 12-4.) The superior court denied the
petition.

(Dkt. 12-5.)

Petitioner again appealed, but the Georgia

Supreme Court summarily denied his application. (Dkt. 12-6.)
A few months later, Petitioner filed his federal habeas petition in
this Court, seeking relief under 28 U.S.C. § 2254. (Dkt. 1.) He asserts
the following claims:

1 The Court would reach the same conclusions expressed in this Order
even on a de novo review.
2

>,

(1) State officials seized evidence from Petitioner’s vehicle and used it
against him in violation of the Fourth Amendment.
(2) The trial court allowed the state’s lead detective to participate in
jury selection in violation of the Sixth Amendment and the Due
Process Clause.
(3) Petitioner’s trial counsel was constitutionally ineffective for failing
to (a) file a motion to suppress evidence seized from Petitioner’s
vehicle; (b) object to the detective’s participation in jury selection;
and (c) object to the trial court’s limitation of voir dire.
(4) Petitioner’s appellate counsel was constitutionally ineffective for
failing to (a) investigate Petitioner’s case; (b) argue that evidence
was seized from Petitioner’s vehicle in violation of the Fourth
Amendment; (c) argue trial counsel was ineffective for failing to
raise the Fourth Amendment argument; (d) prevent Petitioner from
being “deprived by a partial hearing”; (e) argue trial counsel was
ineffective for failing to object to the detective’s participation in jury
selection; and (f) argue trial counsel was ineffective for failing to
object to the trial court’s limitation of voir dire.
(5) The trial court improperly limited voir dire by preventing
Petitioner from asking prospective jurors “if they would be more
likely to believe police officers who take the stand over any other
witness.”
(Dkt. 1 at 5-10, 16-18.)
II.

Discussion
The Magistrate Judge found that claims 3(a), 3(c), 4(a), 4(c), 4(d),

and 4(f) are procedurally barred because Petitioner (1) failed to raise
them on direct appeal or in his state habeas petition and (2) has not
established any excuse for that failure. (Dkt. 22 at 8.) The Court sees no
3

plain error in this determination. See Wright v. Hopper, 169 F.3d 695
703 (11th Cir. 1999) (finding (1) “[t]he failure to raise these claims to the
state courts is a procedural default that bars federal habeas review of the
claims,” and (2) default may be excused only if petitioner “show[s] cause
and prejudice for his procedural default or that failure to consider his
claims will result in a fundamental miscarriage of justice”).
The Magistrate Judge also found that claims 1, 2, 3(b), and 5 are
barred because, although Petitioner asserted them in his state habeas
petition, the state court “correctly determined [they] were procedurally
defaulted because Petitioner did not raise them on direct appeal.” (Dkt.
22 at 8-9); see Howard v. Warden, 2019 WL 1931866, at *1 (11th Cir.
Mar. 29, 2019) (noting that, in Georgia, “[c]laims not raised on direct
appeal are barred by procedural default”).

The Magistrate Judge

concluded that Petitioner failed to excuse this default as well. (Dkt. 22
at 8-9.) The Court sees no plain error in these findings. See Tharpe v.
Warden, 898 F.3d 1342, 1346 (11th Cir. 2018) (“[F]ederal courts may not
review a claim procedurally defaulted under state law if the last state
court to review the claim states clearly and expressly that its judgment

4

rests on a procedural bar, and the bar presents an independent and
adequate state ground for denying relief.”).
Claims 4(b) and 4(e) are the only claims that were denied on the
merits by the state habeas court. In these claims, Petitioner says his
appellate counsel was ineffective for failing to argue that (1) state officials
seized a photograph from Petitioner’s vehicle and used it against him in
violation of the Fourth Amendment, and (2) trial counsel was ineffective
for not objecting to a detective’s participation in jury selection. To prevail
on a claim for ineffective assistance of counsel, a petitioner must show
that counsel’s conduct was “outside the wide range of professionally
competent assistance” and that “there is a reasonable probability that,
but for counsel’s unprofessional errors, the result of the proceeding would
have been different.” Strickland v. Washington, 466 U.S. 668, 690, 694
(1984). When this deferential Strickland standard is “combined with the
extra layer of deference that § 2254 provides [in federal habeas cases],
the result is double deference and the question becomes whether there is
any reasonable argument that counsel satisfied Strickland’s deferential
standard.” Johnson v. Sec’y, DOC, 643 F.3d 907, 910-11 (11th Cir. 2011).

5

The state habeas court previously found that claim (4)(b) did not
establish a Strickland violation because (1) trial counsel did not preserve
the Fourth Amendment issue for appeal, (2) state officials could still have
obtained and used the photograph against Petitioner even if seizing it
from his vehicle violated the Fourth Amendment, and (3) witnesses
testified that they were not influenced by the photograph. (Dkt. 12-5 at
13-16.) The state habeas court also found that claim 4(e) failed because
(1) “[i]t is clear from the trial transcript that counsel for the State
conducted voir dire on behalf of the State,” (2) nothing says a law
enforcement officer cannot assist counsel during voir dire, and (3) “[t]he
rule of sequestration . . . does not apply to voir dire” and, even if it did, a
valid exception applied. {Id. at 9—10.) The Magistrate Judge found that
the state habeas court’s disposition of claims (4)(b) and 4(e) was not
unreasonable. (See Dkt. 22 at 9-13.) The Court sees no plain error in
that determination. See Gissendaner v. Seaboldt, 735 F.3d 1311, 1323
(11th Cir. 2013) (“[D]ouble deference is doubly difficult for a petitioner to
overcome and it will be a rare case in which an ineffective assistance of
counsel claim that was denied on the merits in state court is found to
merit relief in a federal habeas proceeding.”).

6

The Court also agrees with the Magistrate Judge that a certificate
of appealability should be denied here. (Dkt. 22 at 13-15.) Petitioner
has not shown that “jurists of reason would find it debatable whether the
petition states a valid claim of the denial of a constitutional right and
that jurists of reason would find it debatable whether the district court
was correct in its procedural ruling.” Slack v. McDaniel, 529 U.S. 473,
484 (2000).2
III.

Conclusion
The Court ADOPTS Magistrate Judge Catherine M. Salinas’s

Final Report and Recommendation (Dkt. 22). Petitioner’s Request for an
Evidentiary Hearing (Dkt. 21) is DENIED, Respondent Christopher

2 The Magistrate Judge recommends denying Petitioner’s motion for an
evidentiary hearing because his substantive claims are procedurally
barred or otherwise fail under Section 2254. (Dkt. 22 at 13.) The Court
sees no plain error in that recommendation. See, e.g., Sears v. Chatman,
2017 WL 2644478, at *8 (N.D. Ga. June 20, 2017) (“A habeas petitioner
/Omust satisfy section 2254(d) before he is allowed discovery or an
■"evidentiary hearing on claims previously adjudicated on the merits in
state court.”).
The Court also agrees that Respondent Carr
(Attorney General of Georgia) is an improper party here and that his
motion to be dismissed should thus be granted. (Dkt. 22 at 5); see
Robinson v. Berry, 2020 WL 990008, at *1 n.l (M.D. Ga. Feb. 28, 2020)
(“[I]f the petitioner is currently in custody under a state court judgment,
the petition must name as respondent the state officer who has custody,”
which is “the warden of th[e] facility” in which petitioner is incarcerated).
7

Carr's Motion to Dismiss (Dirt 11)' is ORANTE©;—this—a-etion-4sDISMISSED, and a certificate of appealability is DENIED.
SO ORDERED this 17th day of July, 2020.

m

michKel l, brown
UNITED STATES DISTRICT JUDGE

8

UNITED STATES DISTRICT COURTNORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION

Brian Green,
CIVIL ACTION FILE

Petitioner,

NO. 1:19-cv-3281

vs.
Clinton Perry and C. Carr,
Respondents.

JUDGMENT
- /\.

This action having come before the court, Honorable Michael L Brown, United
States District Judge, for consideration magistrate judges report and recommendation
and defendant’s motion to dismiss, and the court having adopted the report and
recommendation granted said motion, it is
Ordered and Adjudged that the action be, and the same hereby is, dismissed.
Dated at Atlanta, Georgia, this 17th day of July, 2020.
JAMES N. HATTEN
CLERK OF COURT

By:
Prepared, Filed, and Entered
jn the Clerk’s Office
July 17, 2020
James N. Hatten
Clerk of Court
By: s/D. Burkhalter
Deputy Clerk

s/D. Burkhalter
Deputy Clerk

i

/

I
I

t

!
i

I

I

-UAUTHULMTUDATATESDISTRICI GO URT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
BRIAN GREEN, Petitioner,.

PRISONER HABEA S CORPUS
28 U.S.C. § 2254

; i
L

V.
/

CLINTON PERRY, et al.
Respondents.

CIVIL ACTION NO.
1:19-CV-03281 -MLB-CMS

3

FINAL REPORT AND RECOMMENDATION
'X

\\

Petitioner Brian Green, confined at Macon State prison in Oglethorpe

3

Georgia, filed a petition for writ of habeas corpus pursuant' to 28 U.S.C. § 2254
challenging his conviction in the Superior Court of Douglas County.

(Doc. 1)

Petitioner has paid the filing fee. Respondent has filed a response to the petition.
(Doc. 10).
For the , reasons stated below, it is RECOMMENDED that Respondent’s
motion to dismiss Christopher Carr as an improper respondent (Doc. 11) be
GRANTED, the instant petition (Doc. 1) be DENIED, Petitioner’s motion for an
evidentiary hearing (Doc. 21) be DENIED, and this action be DISMISSED.
I.

Background
Following a jury trial, Petitioner was convicted of two counts of armed

:

robbery and two counts of kidnapping and was sentenced to a total term of life
S

*r.

/»

<:

i

r

UJijj /'US

. ,.

-

! /

Z U£<$&

'a-100p l/i 4f/eiU HeAt> ^w£■f ^0-/g
<;0{vi&jkvbj
L5 cUjfQ
^

O? us. si o

#
i

i
i

impr-KOBfflentr1—(Bo€^4-at—l.--2i-D€)€--l-2--7-at-6-l-)T—Oii-direGt-appeal,-thro.ugh-iLeiiL
counsel, Petitioner argued that (1) he received ineffective assistance of counsel
based on his trial counsel’s failure to object to a jury instruction that allegedly
expanded the indictment, and (2) the evidence was insufficient to prove the
asportation element of the kidnapping offenses. Green v. State, 714 S.E.2d 646, 648
(Ga. Ct. App. 2011).

The Court of Appeals of Georgia affirmed Petitioner’s

convictions. Id.] (Doc. 12-1).
In 2012, Petitioner filed a habeas corpus petition in the Superior Court of
Chattooga County, followed by an amended petition. (Doc. 12-3; Doc. 12-4.) In
his petition and amended petition, he raised the following claims (Grounds 1-4 and
5-15, respectively):2
(1)

The State failed to prove the asportation element of the
kidnapping offenses;

(2)

Petitioner was arrested on warrants that did not comply with the
Fourth Amendment;

(3)

Petitioner’s vehicle was removed from his driveway in violation w
of the Fourth Amendment;

(4)

Photos were improperly removed from Petitioner’s vehicle
without a warrant;

1 Petitioner was also convicted of making terroristic threats, but this charge
was subsequently dismissed. {See Doc. 12-7 at 61).
2 The state habeas court separately numbered the claims in the petition and
amended petition. (See Doc. 12-5 at 3-4).
2

/

in­

jury selection;
(6)

Trial counsel was ineffective because he did not object to the
detective participating in jury selection;

(7)

Appellate counsel was ineffective for not raising trial counsel’s
failure to object to the detective participating injury selection;

(8)

The trial court erred in limiting voir dire of prospective jurors;

(9)

Appellate counsel was ineffective for not raising the trial court’s
error in limiting voir dire;

(10) The prosecutor engaged in misconduct by commenting on
Petitioner’s failure to testify;
(11) Petitioner was convicted by use of illegally obtained evidence;

^

(12) Trial counsel was ineffective for failing to subject the State’s
case to proper adversarial testing;

^

(13) Appellate counsel was ineffective by failing to raise Fourth
Amendment issues;
(14) Appellate counsel was ineffective for not investigating trial
counsel’s pre-trial errors; and

/

(15) The prosecution engaged in misconduct by introducing
improper similar transaction evidence.
(Doc. 12-3 at 5-6; Doc. 12-4 at 1-3). Following an evidentiary hearing, (Docs. 127 to -10), the state habeas court denied relief in June 2017, (Doc. 12-5). The
Supreme Court of Georgia denied Petitioner’s application for a certificate of
probable cause in April 2019. (Doc. 12-6).
Petitioner subsequently filed the instant § 2254 petition raising the following
claims:
3

4

«•

Amendment, and illegally seized evidence was used to procure
Petitioner’s conviction;3
(2)

The trial court erroneously allowed a detective to participate in
jury selection;

(3)

Trial counsel was ineffective for failing to

t»J

fa’

(a)

file a motion to suppress evidence seized from
Petitioner’s vehicle;

(b)

object to the detective’s participation in jury selection;
and

(c)

object to the trial court’s error in limiting voir dire;

e<r

5V<X>

(4)

Appellate counsel was ineffective for failing to
-*5>

(a)

investigate Petitioner’s case;

(b)

raise a meritorious Fourth Amendment argument on ^
appeal;

(c)

argue that trial counsel was ineffective for failing to raise /
the Fourth Amendment argument;
*5

(d)

prevent Petitioner from being deprived of a full hearing;

(e)

argue that trial counsel was ineffective for failing to obj ect
to the unfair jury selection; and

(f)

argue that trial counsel was ineffective for failing to object
to the limitation of voir dire; and

V, X

^

3 Respondent interprets this claim to also include an allegation that the state
trial court failed to give a hearing regarding the illegally seized evidence, but this
appears to be related to the overall claim that the evident was used in violation nf
the Fourth AmendmentfS'ge Doc. 1 at 16; Doc. 10-1 at 3). To the extent this is a
separate claim, such claim is unexhausted but procedurally defaulted. See O.C.G.A.
§ 9-14-51; Ogle v. Johnson, 488 F.3d 1364, 1370 (11th Cir. 2007).

4

/
)

(Doc. 1 at 5-10, 16-18).
II.

Discussion
A.

Motion

Respondent moves to dismiss Christopher Carr, the Attorney General of the
State of Georgia, as an improper respondent. (Doc. 11). Petitioner does not oppose
this motion.4 {See Doc. 16 at 14). Pursuant to Rule 2(a) of the Rules Governing
Section 2254 Cases, “the state officer having custody of the applicant shall be
named as the respondent.” See also 28 U.S.C. § 2243 (“The writ, or order to show
cause shall be directed to the person having custody of the person detained.”). Thus,
the warden of Petitioner’s place of confinement, Clinton Perry—whom Petitioner
has already named in his petition—is the proper respondent. Accordingly, it is
RECOMMENDED that Respondent’s motion to dismiss Christopher Carr as an
improper respondent (Doc. 11) be GRANTED.
B.

Merits

Before a federal court may grant a § 2254 petition, a state prisoner seeking
federal habeas relief must first exhaust his state court remedies or show that a state
corrective process is unavailable or ineffective to protect his rights. 28 U.S.C.

4 Petitioner does not appear to have added Carr as a respondent in his § 2254
petition, and it appears that Carr may have been unintentionally added as a party
during docketing. (See Doc. 1 at 1).
5

•imsron-direct-appealcollateral review, to the highest state court according to that state’s appellate
procedure. Mason v. Allen, 605 F.3d 1114, 1119 (11th Cir. 2010). If the petitioner
has not exhausted all of his claims in state court, the federal court must dismiss the
petition without prejudice. Lugo v. Sec ’y, Fla. Dep’t of Corn, 750 F.3d 1198, 1214
(11th Cir. 2014).
However, when a federal habeas petitioner raises unexhausted claims that
would be procedurally barred in state court pursuant to state law, the federal court
may “treat those claims now barred by state law as no basis for federal habeas
relief. . .. The unexhausted claims should be treated as if procedurally defaulted.”
Ogle v. Johnson, 488 F.3d 1364, 1370 (11th Cir. 2007) (citations and internal
quotation marks omitted). Doing so allows a federal court to “forego the needless
judicial ping-pong” of requiring a petitioner to go to state court to exhaust a claim
clearly barred by a state’s procedural rules before returning to federal court. Hittson
v. GDCP Warden, 759 F.3d 1210, 1260 n.56 (11th Cir. 2014) (internal quotation
marks omitted).
Under Georgia law, “[a]ll grounds for relief claimed by a petitioner for a writ
of habeas corpus shall be raised by a petitioner in his original or amended petition,”
and subsequent petitions may assert only grounds that “could not reasonably have
been raised in the original or amended petition.” O.C.G.A. § 9-14-51. That statute

6

a

never

presented in state court... .” Chambers v. Thompson, 150 F.3d 1324, 1327 (11th
Cir. 1998). However,
[a] federal court may still address the merits of a procedurally defaulted
claim if the petitioner can show cause for the default and actual
prejudice resulting from the alleged constitutional violation. ... To
show cause, the petitioner must demonstrate some objective factor
external to the defense that impeded his effort to raise the claim
properly in state court. . .. [I]f the petitioner fails to show cause, [the
court] need not proceed to the issue of prejudice.. .. [I]n order to show
prejudice, a petitioner must demonstrate that the errors at trial actually ■ and substantially disadvantaged his defense so that he was denied
'■
fundamental fairness.

y

Ward v. Hall. 592 F,3d 1144. 115X44-1 th Cir. 2010) (citations and internal quotation
marks omitted).

“ [Ineffective assistance adequate to establish cause for the

procedural default of some other constitutional claim is itself an independent
constitutional claim.” Edwards v. Carpenter, 529 U.S. 446, 451 (2000). “[A] claim
of ineffective assistance . . . generally must be presented to the state courts as an
independent claim before it may be used to establish cause for a procedural default.”
Id. at 452 (internal quotation marks omitted).
Alternatively, the petitioner may obtain federal habeas review of a
procedurally defaulted claim if he presents “proof of actual innocence, not just legal
innocence.” Ward, 592 F.3d at 1157 (citation omitted). To demonstrate actual
innocence, the petitioner must “support his allegations of constitutional error with
new reliable evidence . .. that was not presented at trial.” Schlup v. Delo, 513 U.S.

c ' L

^-9^T^444^^^^-li|X]he4)-eJlitioner must show that it is more likely than not that no
reasonable juror would have convicted him in the light of the new evidence.” Id. at
327.
In the present case, Petitioner failed to comply with Georgia law because he
did not present Claims 3(a), 3(c), 4(a), 4(c), 4(d), and 4(f) on direct appeal or state
habeas review.

To the extent that Petitioner claims ineffective assistance of

appellate counsel to establish cause for the defaults, such claims are unexhausted.
Therefore, Petitioner has not shown cause for his defaults, and the issue of prejudice
need not be considered. Petitioner has also not presented proof of actual innocence.
See Ward, 592 F.3d at 1157. Accordingly, these claims should be denied as
procedurally defaulted.
* '•
y*

/

With respect to Claims 1, 2, 3(b), and 5,5 “[fjederal courts may not review a
claim procedurally defaulted under state law if the last state court to review the
claim states clearly and expressly that its judgment rests on a procedural bar, and
the bar presents an independent and adequate state ground for denying relief.” Hill
v. Jones, 81 F.3d 1015, 1022 (11th Cir. 1996).

\

5 Claim 1 corresponds to Grounds 3 and 4, while Claims 2, 3(b), and 5
correspond to Grounds 5, 6, and 8, respectively, in the state habeas petition and
amended petition. {See Doc. 12-3 at 5-6; Doc. 12-4 at 1-3; Doc. 12-5 at 8-11).
8

jn-the-presenL_case. the state habeas court correctly determined that these
claims were procedurally defaulted because Petitioner did not raise them on direct
appeal. (See Doc. 12-5 at 8-11). The court rested its decision on an independent
and adequate procedural bar, and thus, Petitioner cannot obtain federal habeas
review of these claims. See Hill, 81 F.3d at 1022. Petitioner neither shows cause
and prejudice to excuse the default, nor presents proof of actual innocence. See
Ward, 592 F.3d at 1157. Accordingly, because these claims are procedurally
defaulted, Petitioner should be denied federal habeas relief as to these claims.
Finally, in Claims 4(b) and 4(e),6 Petitioner alleges that appellate counsel was
ineffective for failing to argue that trial counsel was ineffective for failing to raise
the Fourth Amendment argument, and for failing to argue that trial counsel was
ineffective for failing to object to the unfair jury selection, respectively. (Doc. 1 at
10). The state habeas court denied these claims on the merits. With respect to Claim
4(b), the court ruled that Petitioner failed to show that appellate counsel was
ineffective because appellate counsel’s decision not to argue that trial counsel was
ineffective was reasonable. (Doc. 12-5 at 14-15). In particular, the court noted that
appellate counsel testified at the habeas hearing that the photograph allegedly seized

6 These claims correspond to Grounds 13 and 7, respectively, in the state
habeas petition and amended petition. (See Doc. 12-4 at 1, 3; Doc. 12-5 at 9-10,
13-16).
9

i-n^ielat4oa^£-the-E£)iLil]i_Ainendment would have been admitted under the
inevitable discovery doctrine. {Id. at 15). The court also ruled that, in addition to
the inevitable discovery doctrine, the photograph at issue would likely have been
admissible under the attenuation doctrine because the allegedly impermissible
photograph had been included in a photographic lineup by another police
department without any knowledge that the second police department knew that the
photograph had been illegally seized. {Id. at 16).
To prevail on a claim of ineffective assistance of counsel, a prisoner must
meet a two-part test established by Strickland v. Washington, 466 U.S. 668 (1984).
First, he must show that “counsel’s performance was deficient.” Khan v. United
States, 928 F.3d 1264, 1272 (11th Cir.), cert. dismissed, 140 S. Ct. 339 (2019).
Counsel’s performance is deficient only if it falls “below an objective standard of
reasonableness.”

Id. (internal quotation marks omitted).

“There is a strong

presumption that counsel’s conduct fell within the range of reasonable professional
assistance, and, therefore, counsel’s performance is deficient only if it falls below
the wide range of competence demanded of lawyers in criminal cases.” Osley v.
United States, 751 F.3d 1214, 1222 (11th Cir. 2014). Second, a prisoner must show
that he suffered prejudice as a result of counsel’s deficient performance. Id. To
establish prejudice, a prisoner must show “a reasonable probability that, but for
counsel’s unprofessional errors, the result of the proceeding would have been

10

■different

A-ieasonable probability is a probability sufficient to undermine

confidence in the outcome.” Id. (internal quotation marks omitted). A court need
not address both prongs if a prisoner makes an insufficient showing on one. Id.
“Claims of ineffective assistance of appellate counsel are governed by the same
standards applied to trial counsel under Strickland.” Brooks v. Comm ’r, Ala. Dep’t
of Corr., 719 F.3d 1292, 1300 (11th Cir. 2013) (internal quotation marks omitted).
In the § 2254 context, review of claims of ineffective assistance is “doubly
deferential” and “asks only whether there is any reasonable argument that counsel
satisfied Strickland's deferential standard.” Gissendanerv. Seaboldt, 735 F.3d 1311
1323 (11th Cir. 2013) (internal quotation marks omitted). As a result, “it will be a
rare case in which an ineffective assistance of counsel claim that was denied on the
merits in state court is found to merit relief in a federal habeas proceeding.” Id.
(internal quotation marks omitted).
The state habeas court’s determination that appellate counsel was not
ineffective in Claim 4(b) did not rest on an unreasonable interpretation of the facts
or law. See 28 U.S.C. § 2254(d). According to appellate counsel’s testimony,
numerous witnesses identified Petitioner, police identified Petitioner’s vehicle,
Petitioner stipulated to the admission of fingerprints, and a codefendant testified
against Petitioner. (Doc. 12-7 at 34-36). As a result, according to appellate counsel,
even if the search of Petitioner’s vehicle had been determined to be illegal, a

11

photo-graplmf Petitioner would inevitably have been able to have been included in
a photographic lineup. {Id. at 36). Furthermore, several people identified Petitioner
in court and stated that they were not influenced by the photographic lineup. {Id.)
Finally, appellate counsel explained that because trial counsel never moved to
/■/<£-

/^j

coSB

suppress the photograph, appellate counsel would have been limited to arguing
ineffective assistance and would have had great difficulty in showing prejudice. {Id.
at 37.) Based on this testimony, it was not unreasonable for the state habeas court
to rule that appellate counsel was not ineffective for failing to argue that trial counsel
was ineffective for failing to raise a Fourth Amendment issue. See Khan, 928 F.3d
at 1272; Gissendaner, 735 F.3d at 1323. Furthermore, it was not unreasonable for
the court to rule that the photograph at issue would likely have been admissible
under the attenuation doctrine. See Utah v. Strieff, 136 S. Ct. 2056, 2061 (2016);
(Doc. 12-5 at 16). Accordingly, Petitioner is not entitled to federal habeas relief as
to this claim.
Turning to Claim 4(e), the state habeas court ruled that Petitioner failed to
show that appellate counsel was ineffective because appellate counsel’s decision not
to argue that trial counsel was ineffective was reasonable. (Doc. 12-5 at 10-11). In
particular, the court ruled that, contrary to Petitioner’s argument that the lead
detective assigned to investigate Petitioner’s case was not allowed to participate in
jury selection, there was no law prohibiting the detective from assisting the

12

-prosecutor during jury selection, and it was clear from the trial transcript that
counsel for the State conducted voir dire for the State. (Id. at 9-10; see also Doc.
12-7 at 101-23, 67-69 (voir dire)). The habeas court also noted that the rule of
sequestration did not apply and that, even if the rule did apply, an exception allowed
the lead detective to remain as a person essential to the presentation of the State’s
case. (Doc. 12-5 at 9-10).
The state habeas court’s determination that appellate counsel was not
ineffective in Claim 4(e) did not rest on an unreasonable interpretation of the facts
or law. Petitioner does not cite any law in arguing why the lead detective should
not have been allowed to assist the prosecutor during voir dire and merely asserts
that the detective’s presence unfairly prejudiced the jury selection process.
Petitioner’s arguments fall far short of showing that the state habeas court’s decision
was unreasonable. Accordingly, Petitioner is not entitled to federal habeas relief as
to this claim.
Finally, Petitioner moves for an evidentiary hearing on his petition. (Doc.
21). As shown above, because Petitioner has not shown that he is entitled to relief,
the motion should be denied.
in.

Certificate of Appealability
Pursuant to Rule 11 of the Rules Governing Section 2254 Cases, “[t]he

district court must issue or deny a certificate of appealability when it enters a final

13

-ordenadverse to the applicant. . .. If the court issues a certificate, the court must
state the specific issue or issues that satisfy the showing required by 28 U.S.G.
§ 2253(c)(2).” Section 2253(c)(2) states that a certificate of appealability may issue
“only if the applicant has made a substantial showing of the denial of a
constitutionaUfighL” A substantial showing of the denial of a constitutional right
/

“includes showing that reasonable jurists could debate whether (or, for that matter,
agree that) the petition should have been resolved in a different manner or that the
issues presented were adequate to deserve encouragement to proceed further.”
Slack v. McDaniel, 529 U.S. 473, 484 (2000) (internal quotation marks omitted).
When the district court denies a habeas petition on procedmhK
h grounds without reaching the prisoner’s underlying constitutional \
/ claim ... a certificate of appealability should issue only when the |
/
prisoner shows both that jurists of reason would find it debatable I
/
whether the petition states a valid claim of the denial of a constitutional /
V
right and that jurists of reason would find it debatable whether the
district court was correct in its procedural ruling
Jimenez v. Quarterman, 555 U.S. 113,118 n.3 (2009) (citing Slack, 529 U.S. at 484)
(internal quotation marks omitted).
It is RECOMMENDED that a certificate of appealability be DENTED
because resolution of the issues presented is not debatable. If the district judge
assigned to this case adopts this recommendation and denies a certificate of
appealability, Petitioner is advised that he “may not appeal the denial but may seek

14

J

-a-e^ftifi-cate-fcojoiJhe court of appeals under Federal Rule of Appellate Procedure
22.” 28 U.S.C. foil. § 2254, Rule 11(a).
IV.

Conclusion
For the reasons stated above, it is RECOMMENDED that Respondent’s

motion to dismiss Christopher Carr as an improper respondent (Doc. 11) be
GRANTED, the instant petition (Doc. 1) be DENIED, Petitioner’s motion for an
evidentiary hearing (Doc. 21) be DENIED, a certificate of appealability be
DENIED, and this action be DISMISSED.
The Clerk is DIRECTED to terminate the referral to the undersigned.
SO RECOMMENDED, this 29th day of June, 2020.

P',y\ AJ?
CATHERINE M. $AEfNAS
UNITED STATES: MAGISTRATE JUDGE

15

TN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERNT5ISTRICT-OF-GEeRGJAATLANTA DIVISION
BRIAN GREEN,
Petitioner,

PRISONER HABEAS CORPUS
28 U.S.C. § 2254

v.
CLINTON PERRY, etal.
Respondents.

CIVIL ACTION NO.
1:19-C V-03281 -MLB-CMS

ORDER FOR SERVICE OF REPORT AND RECOMMENDATION
t

The Report and Recommendation of the United States Magistrate ludge,
made in accordance with 28 U.S.C. § 636(b)(1), Federal Rule of Civil Procedure
72(b), and this Court’s Local Rule 72, has been filed. The Clerk is DIRECTED to
serve a copy of the Report and Recommendation, together with a copy of this Order,
upon counsel for the parties and upon any unrepresented parties.
Within fourteen (14) days of service of this Order, a party may file written
objections, if any, to the Report and Recommendation.

See 28 U.S.C.

§ 636(b)(1)(C). If objections are filed, they shall specify with particularity the
alleged error or errors made (including reference by page number to the transcript
if applicable) and shall be served upon the opposing party.

The party filing

objections will be responsible for obtaining and filing the transcript of any
evidentiary hearing for review by the district judge assigned to this case. If no
objections are filed, the Report and Recommendation may be adopted as the opinion

■aad-Qr-deiLD£ihe District Court, and on appeal, the Court of Appeals will deem
waived any challenge to factual and legal findings to which there was no objection,
subject to interests-of-justice plain error review. 11th Cir. R. 3-1.
The Clerk is DIRECTED to submit the Report and Recommendation with
objections, if any, to the district judge assigned to this case after the expiration of
the above time period.
SO ORDERED, this 29th day of June, 2020.

YJ

At aJ?
V3“

CATHERINE M.
AS
UNITED STATES: MAGISTRATE JUDGE

2

